Supreme Court, U.S.
FILED

No.

c^-1

I (7 0

JUL 3 1 2021
OFFICE OF THE CLERK

IN THE SUPREME COURT OF THE UNITED STATES
JUSTIN CORLISS,
Petitioner
v.

SUPERINTENDENT COAL TOWNSHIP SCI, et al,
Respondents

On Petition For A Writ Of Certiorari To
The United States Court Of Appeals
For The Third Circuit
PETITION FOR A WRIT OF CERTIORARI

Justin Corliss, DOC No. MU6240
SCI Coal Township
1 Kelley Drive
Coal Township, PA 17866

I. QUESTION PRESENTED

Whether the applications for certificates of appealability were
improperly denied when the issues presented plainly meet the
standards articulated by this Court, in Slack v. McDaniel, 529 U.S. 473,
2000, as fairminded jurists would debate whether Petitioner's conviction
did not come about through: (1) the unauthorized revival of time-barred
charges that violates ex post facto prohibitions, (2) a constructively
amended jury instruction that resulted in violent felony convictions
based on misdemeanor conduct, and (3) the prosecution's knowing use
of false testimony and deliberate omission of facts that conflict with the
testimony proffered.

LIST OF PARTIES

A list of all parties to the proceeding in the court whose judgment
is the subject of this petition is as follows:
• Petitioner:
Justin Corliss
• Respondent:
Superintendent Coal Township SCI
• Respondent:
District Attorney of Monroe County, Pennsylvania

RELATED CASES

• Corliss v. McGinley, Superintendent Coal Township SCI, No. 1:18cv-2192, U. S. District Court for the Middle District of Pennsylvania.
Judgement entered August 17, 2020
• Corliss v. Superintendent Coal Township SCI, et al, No. 20-2778, U. S.
Court of Appeals for the Third Circuit. Judgment entered March 2,
2021.

ii

II. TABLE OF CONTENTS

I. QUESTION PRESENTED

1

m

II. TABLE OF CONTENTS
III. TABLE OF AUTHORITIES

v

IV. PETITION FOR WRIT OF CERTIORARI

Vll

V. OPINIONS BELOW

1

VI. JURISDICTION

2

VII.CONSTITUTIONAL PROVISIONS INVOLVED

3

VIII.STATEMENT OF THE CASE

5

1. Mr. Corliss's Ex Post Facto Limitations Issue

11

2. Mr. Corliss's Constructive Amendment To The Jury Instruction
Claim

15

3. Mr. Corliss's False Testimony Claim

20

4. Certificate of Appealability Standard

24

IX. REASONS FOR GRANTING THE WRIT

26

A. TO AVOID PERFUNCTORY DENIALS OF PRO SE
CERTIFICATES OF APPEALABILITY FOR HABEAS
PETITIONERS, CHALLENGING STATE COURT
CONVICTIONS, THE DISTRICT COURTS MUST FIRST
DETERMINE WHETHER THE CONSTITUTIONAL ISSUE
COMPLAINED OF WAS RULED ON THE MERITS BY THE
STATE COURT AND WHETHER THAT RULING WAS
26
-----LEGALLY-VALID
in

32

X. CONCLUSION
XI. APPENDIX
5/13/2021 Third Circuit Order denying Petition for en banc

APPENDIX A

rehearing
3/2/2021

Third Circuit Order denying Certificate of
APPENDIX B

Appealability.
8/17/2020 District Court Order denying habeas corpus

APPENDIX C

petition
12/8/2017 Pennsylvania Superior Court Opinion

IV

APPENDIX D

III. TABLE OF AUTHORITIES
Cases
Barefoot v. Estelle, 463 U.S. 880, 1983
Bouie v. City of Columbia, 378 U.S. 347, 1964

24
9, 18

Brady v. Maryland, 373 U.S. 83, 1963

23

Buck v. Davis, 137 S.Ct. 759 (2017)

24

Com. v. Bethlehem, 570 A.2d 563, 1989

11

Com. v. Cardonic, 292 A.2d 402, 1972

12

Com. v. Corliss, No. 108 EDA 2017

11

Dretke v. Haley, 541 U.S. 386, 2004

32

10, 21

Giglio v. U.S., 405 U.S. 150, 1972
Harris v. Nelson, 394 U.S. 286, 1969

32

Hohn v. U.S., 524 U.S. 236, 1998

24

Hysler v. Florida, 315 U.S. 411, 1942

21

Johnson v. Williams, 568 U.S. 289, 2013

13

Mooney v. Holohan, 294 U.S. 103, 1935

22

Miller-El v. Cockrell, 537 U.S. 322, 2003

24

Napue v. Illinois, 360 U.S. 264, 1959

22

Palko v. Connecticut, 302 U.S. 319, 1937

8

21

Pyle v. Kansas, 317 U.S. 213, 1942
Rochin v. California, 342 U.S. 165, 1952
v

'8

Slack v. McDaniel, 529 U.S. 473, 2000

1, 24

Spanier v. Dauphin County Probation Services, No. 19-2228, 12/1/20 ..12
Stogner v. California, 539 U.S. 607, 2003

8, 14

U.S. v. Agurs, 427 U.S. 97, 1976

22

U.S. v. Nixon, 418 U.S. 683, 1974

21

U.S. v Nobles, 422 U.S. 225, 1975

21

Statutes
18 Pa.C.S.A. § 103

11

18 Pa.C.S.A. § 108

11

18 Pa.C.S.A. § 3101

15

18 Pa.C.S.A. § 3126

15

28 U.S.C. § 1254

2
24

28 U.S.C. § 2253(c)

11, 12, 14

42 Pa.C.S.A. No. 5552(c)(3)
42 Pa.C.S.A. No. 5554

12

Pa.R.Crim.P. No. 504(4)

11

Pa.R.Crim.P. No. 560(B)(3)

11

Constitutional Provisions
United States Constitution, Amendment V

3

United States Constitution, Amendment VI

3

United States Constitution, Amendment XIV

3

VI

IV. PETITION FOR WRIT OF CERTIORARI

Justin Corliss, is currently imprisoned at SCI Coal Township in
Coal Township, Pennsylvania and respectfully petitions this court for a
writ of certiorari to review the denial of an application for a certificate
of appealability to issue from the Third Circuit Court of Appeals.

Vll

V. OPINIONS BELOW

The decision by the Superior Court of Pennsylvania denying Mr.
Corliss's direct appeal is reported as Com. v. Corliss, No. 108 EDA 2017,
Dec. 8, 2017. The Pennsylvania Supreme Court denied Mr. Corliss's
allocatur petition on October 30, 2018. A timely habeas corpus petition
was filed and denied, on August 17, 2020.
A certificate of appealability was sought and refused on March 2,
2021 with the panel relying on the district court's endorsement of
anything the state appeal court proffered to avoid a ruling on the
merits. The panel sua sponte falsely claimed that the statute of
limitations was extended before it expired; however, there is no record
evidence to support this wholly conjured from thin air claim.
En banc reconsideration was sought, with no review provided, the
Third Circuit Court of Appeals denied on May 13, 2021.

1

VI. JURISDICTION

Mr. Corliss's application for en banc reconsideration of the denied
certificate of appealability was issued on May 13, 2021. Mr. Corliss
invokes this Court's jurisdiction under 28 U.S.C. § 1254, having timely
filed this petition for a writ of certiorari within ninety days of the Third
Circuit's order.

2

VII. CONSTITUTIONAL PROVISIONS INVOLVED

United States Constitution, Amendment V:
No person shall be held for a capital, or otherwise
infamous crime, unless on a presentment or
indictment of a Grand Jury, except in cases arising
in the land or naval forces, or in the Militia, when in
actual service in time of War or public danger; nor
shall any person be subject for the same offense be
put twice in jeopardy of life or limb; nor shall be
compelled in any criminal case to be a witness
against himself, nor be deprived of life, liberty, or
property, without due process of law; nor shall
private property be taken for public use, without
just compensation.
United States Constitution, Amendment VI:
In all criminal prosecutions, the accused shall enjoy
the right to a speedy and public trial, by an
impartial jury of the State and district wherein the
crime shall have been committed, which district
shall have been previously ascertained by law, and
to be informed of the nature and cause of the
accusation; to be confronted with the witnesses
against him; to have compulsory process for
obtaining witnesses in his favor, and to have the
Assistance of Counsel for his defence.
United States Constitution, Amendment XIV:
All persons born or naturalized in the United States,
and subject to the jurisdiction thereof, are citizens of
the United States and of the State wherein they
.reside.-No-State.shalLmake_or_enforce_any_law_which.
shall abridge the privileges or immunities of citizens
3

of the United States; nor shall any State deprive any
person of life, liberty or property, without due
process of law; nor deny to any person within its
jurisdiction the equal protection of the laws.
Article I, § 10, clause 1:
No state shall enter into any treaty, alliance, or
confederation; grant letters of marque and reprisal;
coin money; emit bills of credit; make anything but
gold and silver coin a tender in payment of debts;
pass any bill of attainder, ex post facto law, or law
impairing the obligation of contracts, or grant any
title of nobility.

4

VIII. STATEMENT OF THE CASE

On July 13, 2013 Petitioner was arrested and accused of indecent
contact with his putative daughter, alleged to have occurred over three
years earlier. It was clear that these claims were recently fabricated to
retaliate against Petitioner's success in child support proceedings. At
the time that the claims were alleged to have occurred, in 2010,

the

child was interviewed by numerous mandated reporters of child abuse
regarding her preferences in custody, to which nary an inkling of abuse
was made. Moreover, the child made written complaints as to
Petitioner's aloofness and his ignoring the child, spending no time with
her, and, allegations of inappropriate conduct were made, at that time,
of the child's step-father, the mother's ex-husband. All these facts and
supporting evidence was known by and provided to the prosecution, but
deliberately omitted from the jury's purview.
Notwithstanding the virtual impossibility of the claims made, visa-vis the facts known, the charges levied were largely time-barred and
the felonies alleged required both, that penile penetration of the vagina
occur, and, a mens rea to exact violence through sexual intercourse that
was not alleged, creating a sufficiency defense.

5

To bolster the complainant's story, a second complainant was
cajoled to make time-barred propensity claims of unrelated indecent
contact of a 16 year vintage.
Exclusive of the myriad trial errors made that contributed to the
convictions rendered, egregious structural errors occurred. The jury was
not directed to find essential elements of crimes charged and elements
of crimes had no evidentiary support. When apprised of these errors the
court went about creating excuses.
On the time-barred charges the court sua sponte interposed that a
rule of repose "tolled" limitations, while ignoring that no evidence
supported tolling and such an issue of fact would properly be for a jury
to determine. The resultant effect was reviving time-barred charges
through judicial fiat over legislative intent and ex post facto
jurisprudence.
The charges that weren't time-barred required proof of sexual
intercourse occasioned with some element of violence through forcible
compulsion to meet. The jury recognized that no claims of penile
penetration were made, and sought explication. Over objection the trial
court constructively amended the definition of the statutory term
"penetration" to meet the misdemeanor claims made, to justify felony

6

convictions for the exact same conduct the misdemeanor claims
encompassed.
Notwithstanding these plain structural errors the trial was
marred through the deliberate omission of facts known to the
prosecution that render the testimony elicited to be false. The primary
complainant's trial claims facially conflict with facts known to the
prosecution that render the claims to be recent fabrications, and a
propensity witness made never before heard claims that materially
conflict with testimony given when previously subjected to cross
examination.
On appeal the panel ignored Petitioner's arguments and
supporting authorities in toto to advance theories and claims sua sponte
interposed that had no evidentiary support to affirm. That panel
appears to have anticipated federal habeas review, and, knowing that
federal judges look solely to the last "reasoned opinion" for alleged
"reasonableness" and ignore entirely any facts or arguments that state
court determinations are not entitled to the presumption of correctness
penned a completely fictitious affirmation. [Com. v. Corliss, No. 108
EDA 2017, decided December 8, 2017]
On habeas review the district court ignored the bulk of Petitioner's
arguments in their entirety, and, true to form, adopted the state appeal
7

panel's claims to refuse any relief due. [Corliss v. Supt. SCI Coal
Twnsp., l-18-cv-2192, decided August 17, 20201 Upon petition for a
certificate of appealability the Circuit court was indisposed to consider
the state court errors and ignored Petitioner's entreaties. [Corliss v.
Supt. SCI Coal Twnsp., 20-2778, decided May 13, 2021]
Substantive due process is intended to prevent the state from
engaging in conduct that "shocks the conscience" or interferes with
rights and liberty interests that are "implicit in the concept of ordered
liberty" and "so rooted in the traditions and conscience of our people as
to be ranked fundamental." Rochin v. California, 342 U.S. 165, 172
(1952); Palko v. Connecticut, 302 U.S. 319, 325-26 (1937). It is difficult to
imagine a situation which would more "shock the conscience" than the
willful continued incarceration of one known to be innocent of a crime.
Here, Petitioner stands convicted of crimes that, even had they
occurred, the Pennsylvania General Assembly granted immunity to
through the passage of time. To usurp that fundamental right the
courts have sua sponte interposed unavailing theories of "tolling"
limitations to revive charges that limitations expired on. This conduct is
fundamentally consistent with that which this court found abhorrent in
Stogner v. California, 539 U.S. 607, 2003. Upon review every court has
turned a blind eye to facts and law that render the "tolling" theory a
8

plain ex post facto violation. On seeking a certificate of appealability
circuit judge Matey falsely claimed, with no evidentiary or record
support, that limitations were extended before expiring regarding
claims predating July of 1997. That 5 year limitation period expired in
July of 2002. At the end of August, 2002 the limitations were extended,
but not before the 5 year period had elapsed. This case is riddled with
judges making totally unsupported claims like this to refuse relief due.
Similarly, this court found that due process restricts judicial
interpretations of criminal statutes when such is "unexpected and
indefensible by reference to the law which has been expressed prior to
the conduct in issue." Bouie v. City of Columbia, 378 U.S. 347, 1964
Here, Petitioner was charged with felonies that required penile
penetration through violence to support elements of crime. No violence
or penile penetration was claimed. Upon the jury seeking clarification
the court defined the statutory term "penetration" in a manner that
incorporated misdemeanor conduct, which was unexpected and
indefensible at that late stage of the proceedings.
This court has consistently abhorred the use of false testimony to
obtain convictions. The standard being where the prosecutor knowingly
used perjured testimony, or failed to correct what he subsequently
learned was false testimony, where either of these events has happened,
9

the falsehood is deemed material "if there is any reasonable likelihood
that the false testimony could have affected the judgment of the jury."
Giglio v. U.S., 405 U.S. 150, 154 (1972). To establish that the testimony
was false competing evidence necessarily must be fairly evaluated;
however, no review has ever been provided. In this case the complainant
wrote in 2010, that Petitioner ignores her and spends no time with her,
but belittles her. She was interviewed by no less that four mandated
reporters of child sex abuse, regarding her interests in custody, and
made no claims of sex abuse against Petitioner, but instead, had
complained about her step-father. At trial these facts were deliberately
omitted by the prosecution to advance entirely inconsistent claims,
amounting to false testimony. On appeal the panel mischaracterized the
false testimony claim as a "Brady" issue, which the district court
credited.

10

1. Mr. Corliss's Ex Post Facto Limitations Issue

Petitioner was charged with six crimes whose statutes of
limitations had expired prior to any legislative extensions being made.
In the Commonwealth of Pennsylvania the prosecution must assert in
charging, and the information, that the crimes alleged occurred within a
non-expired limitations period [Pa.R.Crim.P. Nos. 504(4), 560(B)(3)!;
however, no claims were made. Upon challenge, the court sua sponte
interposed that a rule of repose [42 Pa.C.S.A. § 5552(c)(3)] supposedly
acted to "toll" limitations, refusing to dismiss. At trial the prosecutor
did not meet the element of every crime that limitations did not expire
nor introduced evidence to toll limitations. [18 Pa.C.S.A. §§ 103, 1081
Accord Com. v. Bethlehem, 570 A.2d 563, 1989.1
Petitioner asserted that treating a rule of repose as a tolling
mechanism, where not authorized, axiomatically results in an ex post
facto violation. On appeal the panel claimed that the rule was a tolling
mechanism and affirmed. [Com. v. Corliss, No. 108 EDA 2017] A
different panel properly discerned that the exception is not a tolling

1 Under Pennsylvania law, to bind an accused over for trial, at a preliminary
hearing, the prosecution must establish a prima facie case as to each element of
crime;-Tncluding“the—element-that-the-statute-of-limitations-is-not-a-'bar-to~
prosecution for the offense. Accord 18 Pa.C.S.A. § 103
11

mechanism at all, which was verified on federal habeas review by the
district court in Spanier v. Dauphin County Probation Services, No.
19-2228, 12/1/2020 @ 33.2
To save time-barred charges the trial court sua sponte interposed
a completely unavailing claim, that a rule of repose acts to toll
limitations, in reliance on no facts to support tolling. This error went
uncorrected on appeal, which the district court erroneously adopted;
however, a different appeal panel decided correctly, that it is not a
tolling mechanism, which a different district court correctly adopted.
Petitioner is entitled to both the correct interpretation and to have
limitations construed in his favor and against the Commonwealth. Com.
v. Cardonic, 292 A.2d 402, 1972.
It is thus debatable that fair minded jurists would find the
"tolling" claim anything but error as it exacts an ex post facto violation
in reviving charges that limitations expired on. The state court refused
to address this issue on the merits by, instead, blindly adopting
whatever the trial court interposed, this error was thus propagated by
the district court that merely accepted whatever claims sounded

2 The Spanier panel noted that the Superior Court also observed that § 5552(c)(3) is
not a tolling provision (those are codified in § 5554, titled "Tolling of statute"). See
also_42'Pa:C:Sr§‘5552(c)(2000)‘(providing"Exceptions"'to'the-general'rule-and-not
mentioning tolling.).
12

"reasonable" with no intrinsic review at all, rendering resort to habeas
relief a patent ruse as no ruling on the merits occurred.
A predicate question in every habeas corpus proceeding is whether
the state court adjudicated a claim on the merits, meaning, whether the
court heard and evaluated the evidence and the parties' substantive
arguments. Accord Johnson v. Williams, 568 U.S. 289, 392 (2013). Here,
no review of Petitioner's substantive arguments were ever entertained,
with the district court ignoring them entirely, and adopting whatever
the state courts were selling.
In refusing to actually review this issue, the district court relied
wholly on erroneous state court claims, as such:
"Here, appellant filed an omnibus pretrial motion on
January 21, 2014. The Commonwealth subsequently
filed a written notice of tolling of the statute of
limitations on February 24, 2014 - over two years
before the start of trial on May 31, 2016. We,
therefore, find that the Commonwealth provided
adequate written notice of its intent to toll the
statute of limitations within a reasonable time
before trial. Accordingly, appellant's first issue is
without merit." [Op. 8/17/20 @ 32]
Habeas review for pro se litigants in the Third Circuit has been
reduced to a perfunctory review with the district judge merely
endorsing whatever the state appeals court interposes to refuse relief,
with no chance of getting competent merits review of the federal issues
13

presented. Petitioner specifically asserted that the state courts failed to
ever address the substantive federal claims raised, which would require
de novo review, Williams, 568 U.S. @ 301-02, but has been refused.
This court held, in Stogner v. California, 539 U.S. 607, 2003, that a
law enacted after expiration of a previously applicable limitations
period violates the Ex Post Facto clause when it is applied to revive a
previously time-barred prosecution. Here, the exception to limitations,
under 42 Pa.C.S.A. § 5552(c)(3), is being erroneously interpreted as a
"tolling" mechanism to revive otherwise time-barred prosecutions,
resulting in the same mischief the Stogner Court rejected. Thus, jurists
of reason would find it debatable that the state court's "tolling" claims
are not an unreasonable application of Supreme Court jurisprudence
and would have resolved this matter differently than simply cosigning
the state court's "tolling" claims, as the district court has. A certificate
of appealability should have issued.

14

2. Mr. Corliss's Constructive Amendment To The Jury
Instruction Claim

Petitioner was alleged to have "touched" a complainant's vagina
with his mouth, amounting to the crime of indecent assault, 18
Pa.C.S.A. 3126, which proscribes indecent contact, defined as:
"Any touching of the sexual or other intimate parts
of the person for the purpose of arousing or
gratifying sexual desire, in any person. " [18
Pa.C.S.A. § 3101]
Based on the exact same conduct Petitioner was charged with
felony crimes that do not have an indecent contact element, but instead
require sexual intercourse through forcible compulsion be adduced.
Upon instruction to the jury, "sexual intercourse" was defined. The jury
returned asking the court:
"Does "mouth or tongue touching a sex organ/
vagina" the same as "penetration?" And below that
after the foreperson signed it: Define "penetration"
as used in "involuntary deviate sexual
intercourse." [N.T. 6/1/2016 @ 96]
Defense counsel objected to any further definition being rendered
because no penile penetration of a vagina was alleged, requiring
acquittals on crimes to which an element thereof was sexual
intercourse.
15

The court gave the following instruction:
The statutory term "penetration, however slight,"
respecting involuntary deviate sexual intercourse, is
not limited to penetration of the vagina. Some form
of oral contact with the genitalia of a female victim
is all that is required. For example, the entrance to
the labia is sufficient." [N.T. 6/1/2016 @ 99-100]
(highlighting provided)
The trial court prefaced this redefinition of the term "penetration"
with:
"If it turns out I'm wrong, then the Superior Court
can tell me that's not appropriate." [Id. @ 98]
The Pennsylvania General Assembly has never found a need to
define the term "penetration" in its Crimes Code in such a way as to
incorporate aspects of indecent contact. The phrase "some form of oral
contact" harkens directly to the indecent contact Petitioner was on
notice to defend against in the crime of indecent assault. By
incorporating misdemeanor conduct into the term "penetration" the
court conformed the instruction to meet the evidence; thereby, directing
felony convictions for misdemeanor conduct. This constructive
amendment abrogated Petitioner's sufficiency defense to crimes
requiring penile penetration of a vagina, was unanticipated and
indefensible, resulting in multiple convictions for time-barred

16

misdemeanor indecent assault and the felonies of involuntary deviate
sexual intercourse and incest, for the exact same conduct.
A constructive amendment occurs when the essential elements of
the offense contained in the indictment are altered to broaden the
possible basis for conviction beyond what is contained in the indictment.
A constructive amendment is inconsistent with Petitioner's Sixth
Amendment right "to be informed of the nature and cause of the
accusation." Here, the court allowed proof of an essential element of the
crime, sexual intercourse, on an alternative basis provided by a phrase
incorporating misdemeanor conduct that was not charged in the
indictment.
The state appeals court did not decide this issue on the merits
instead sua sponte interposing a sufficiency of evidence response, which
is a substantively different review paradigm. The sufficiency of evidence
construct relied on dicta claims that have no relevance to the argument
raised, that being, whether the jury was misled as to the Legislature's
definition of felony sexual intercourse vis-a-vis elements of the
misdemeanor indecent assault crime. The district court refused to make
a determination as to whether the issue posed in the state court was
addressed on the merits, and cosigned the sufficiency claim to refuse
relief.
17

The district court listed the issue Petitioner sought review of, as:
"Ground #5: It was constitutional error for the trial
court to change the evidence required to meet
'sexual intercourse,' upon instructing the jury, to
elements Petitioner was not on notice to defend
against, resulting in an impermissible
variance." [Op. 8/17/2020 @ 10]
Yet, the district court endorsed the state courts in ignoring the
issue entirely by erroneously claiming that Petitioner was asserting a
"sufficiency of evidence" issue. [Op. @ 35] The issue has never been
reviewed on the merits, it's been obfuscated and ignored is all. [Op. @
35-42] The Pennsylvania General Assembly does not include the
misdemeanor conduct of "oral contact" in the definition of "sexual
intercourse" which is an essential element to the violent felonies of
involuntary deviate sexual intercourse and incest that were charged.
Jurists of reason would find it debatable that melding aspects of
misdemeanor conduct into a redefining of the statutory term
"penetration" to obtain felony convictions, for conduct also charged as a
misdemeanor, does not violate due process of law by undermining what
Petitioner was on notice to defend against. Such conduct was rejected by
this Court in Bouie v. City of Columbia, 378 U.S. 347, 1964 and remains
just as repugnant today.

18

The state court's refusal to address, on the merits, the due process
issue raised of incorporating misdemeanor conduct to obtain violent
felony convictions does not countenance the district court's adopting the
state's claims to deny review. A certificate of appealability should have
issued.

19

3. Mr. Corliss’s False Testimony Claim

The primary complainant, Petitioner's putative daughter, made
claims in July of 2013 that Petitioner had inappropriately touched her
in 2009 or 2010; however, after Petitioner moved out the complainant
had been interviewed by four mandated reporters of child sexual abuse
regarding her interests in custody, to whom she made no claims of
inappropriate conduct. These reporters, a child psychologist, and three
attorneys involved in custody and child support litigation, were aware of
the complainant alleging inappropriate conduct by her step-father at
that time.
After Petitioner left the shared home in 2010 the complainant had
written in numerous emails about how Petitioner was indifferent to her,
"ignored" her and otherwise spent no time with her. These facts, known
to the prosecution severely impact the credibility of her claims made in
2013 that aligned with her mother's desire to exact retribution for
Petitioner's success in divorce and support litigation, as rendering her
trial testimony being demonstrably false.
On post-trial petitioning the court refused an opportunity to
create a record of facts that contravenes the testimony elicited by the

20

prosecution so that a materiality analysis could be conducted, and
instead mischaracterized the claim as one averring a "Brady” violation.
Petitioner relied on a theory of transparency required for a fair
prosecution, articulated by this court, as such:
"The need to develop all relevant facts in the
adversary system is both fundamental and
comprehensive. The ends of criminal justice would
be defeated if judgments were to be founded on a
partial or speculative presentation of the facts. The
very integrity of the judicial system and public
confidence in the system depend on full disclosure of
all the facts[.]" U.S. v. Nixon, 418 U.S. 683, 709
(1974); accord U.S. v. Nobles, 422 U.S. 225, 230
(1975).
The criminal process's central purpose of discovering the truth
would be an unreal dream if fact-finders were forced to render lifealtering decisions with an incomplete set of facts.
In response to Petitioner's arguments of false testimony the trial
court claimed that because the evidence of false testimony was equally
available to trial counsel, the prosecution could not be faulted for not
presenting it so the jury could make an informed decision.
It is well established that when the prosecution knowingly
presents false testimony and suppresses favorable evidence the
conviction must be vacated. Accord Hysler v. Florida, 315 U.S. 411 1942
and Pyle v. Kansas, 317 U.S. 213, 1942. Additionally, the thrust of Giglio
21

v. U.S., 405 U.S. 150, 1972, and its progeny, has been to ensure that the
jury knows the facts that might motivate a witness in giving testimony,
which could in any reasonable likelihood have affected the judgment of
the jury. Plainly, the presentation of testimony known to be false is
"inconsistent with the rudimentary demands of justice." Mooney v.
Holohan, 294 U.S.103, 112 (1935). In case after case since Mooney this
court has reaffirmed this bedrock principle. See e.g., U.S. v. Agurs, 427
U.S. 97, 193 (1976); Giglio v. U.S., 150, 153 (1972); Napue v. Illinois, 360
U.S. 264, 269 (1959).
When the reliability of a given witness may well be determinative
of guilt or innocence, non disclosure of evidence affecting credibility
justifies a new trial, irrespective of the good or bad faith of the
prosecution. Here, Petitioner has been refused an opportunity to
establish the materiality of the evidence the prosecution knew of to
present a credible basis of proving the testimony false. By the state
mischaracterizing the claim, as a Brady issue, it undermined and
abrogated a ruling on the merits.
Petitioner stated his issue as:
"[ADA] Rakaczewski refused to put into evidence
emails and other known evidence that challenged
C.C.'s credibility and proves that no untoward
conductoccurred.—[Op.-8/-17/2020-@-10]-----------------22

In addressing this issue, the district court copied the state court's
erroneous misdirection that this was a Brady v. Maryland, 373 U.S. 83,
1963 issue, stating:
"It is evident that the state court reasonably applied
the clearly established Supreme Court precedent
governing Brady claims." [Op. 8/17/2020 @ 53]
On petition for a certificate of appealability the Third Circuit
corrected that this was not a Brady issue at all; [3/2/21 Order @ 2] but
then, refusing to issue a COA on a constitutional issue that has never
been addressed on its merits, by any court.
The district court failed to review the issue de novo. On seeking a
certificate of appealability a district judge admitted this was not a
Brady issue, but refused review anyway. Fair minded jurists would find
it debatable that a fair trial was had when the jury was deliberately
deprived of information needed to make a fair decision. A certificate of
appealability should have issued.

23

4. Certificate Of Appealability Standard

A federal habeas petitioner doesn't have an absolute right to
appeal from a district court's denial of his federal habeas petition. The
petitioner must obtain a certificate of appealability (COA) from the
district court, 28 U.S.C. § 2253(c); Buck v. Davis, 137 S.Ct. @ 773, or this
court, Hohn v. U.S., 524 U.S. 236, 1998.
Under § 2253(c)(2), a petitioner is entitled to a COA if he's made a
"substantial showing of the denial of a constitutional right." To satisfy
this standard, a petitioner must "sho[w] that reasonable jurists could
debate whether (or, for that matter, agree that) the petition should have
been resolved in a different manner or that the issues presented were
adequate to deserve encouragement to proceed further.'" Slack v.
McDaniel, 529 U.S. 473, 484 (2000) (quoting Barefoot v. Estelle, 463 U.S.
880, 893 n.4 (1983))
The "threshold inquiry does not require full consideration of the
factual or legal bases adduced in support of the claims." Miller-El v.
Cockrell, 537 U.S. 322, 336, 338 (2003). Likewise, issuance of a COA
"does not require a showing that the appeal will succeed." Id. Thus,
when a petitioner seeks a COA, the court "should limit its examination
to a threshold inquiry into the underlying merits of his claims." Id. In
24

short, when ruling on a COA application, the court must resolve any
doubts in favor of the petitioner.
Mr. Corliss satisfies this standard and is entitled to COA's for the
following claims:
Whether the state's claim that a rule of repose could
be construed as a "tolling" mechanism to revive
charges whose statute of limitations had expired;
thereby, violating the Ex Post Facto Clause, where
the exception relied upon is not a tolling statute nor
a pure statute of limitations.
Whether a constructively amended jury instruction
adds misdemeanor claims to obtain felony
convictions, for the same conduct, violates due
process of law as such a constructive amendment
was unforeseeable nor defensible as Petitioner was
not on notice to defend against it.
Whether the reliance on claims made at trial that
demonstrably conflict with facts known to the
prosecution, rendering those claims false, violates
Petitioner's right to a fair trial when the jury was
not apprised of these credibility challenging facts, by
the prosecution, so that the jury was able to make
an informed decision.

25

IX. REASONS FOR GRANTING THE WRIT
A. TO AVOID PERFUNCTORY DENIALS OF PRO SE
CERTIFICATES OF APPEALABILITY FOR HABEAS
PETITIONERS, CHALLENGING STATE COURT
CONVICTIONS, THE DISTRICT COURTS MUST FIRST
DETERMINE WHETHER THE CONSTITUTIONAL ISSUE
COMPLAINED OF WAS RULED ON THE MERITS BY THE
STATE COURT AND WHETHER THAT RULING WAS
LEGALLY VALID
It's debatable that jurists of reason would reject Mr.
Corliss’s issues when they state violations of well established
Supreme Court law construing constitutional considerations.
The district court's failure to determine whether a merits review
ever occurred in the state, along with the blind reliance on the state
appeal court's mischaracterizations have rendered resort to habeas
relief a patent ruse through the perfunctory rejection of pro se litigant's
claims of constitutional error.
This court, applying Ex Post Facto clause jurisprudence, finds
that reviving crimes to which the passage of time renders a complete
defense, to be repugnant of our Constitution. The state court's claiming
to "toll" limitations, in reliance on a non tolling rule of repose, to
prosecute, is nothing but unavailing semantics that has already been

26

determined to be incorrect by the Third Circuit Court of Appeals, but
erroneously not applied to the facts of Petitioner's case.
Based on well established U.S. Supreme Court doctrine regarding
the bar to reviving crimes whose statutes of limitations has expired, it's
debatable that fairminded jurists would have rejected Mr. Corliss's
statute of limitations claim, and that the court should have granted the
following certificate of appealability:
Whether the state court created an ex post facto
violation, by reviving crimes that statutes of
limitations expired on, by erroneously interpreting a
non-tolling rule of repose as a tolling mechanism.
It is debatable whether every fairminded jurist would have
rejected the constructive amendment to the jury instruction.
Petitioner was not on notice to defend against, that added the
phrase "some form of oral contact" when the Pennsylvania
General Assembly has never defined the term "penetration" to
include it, as forms of "contact" amount to misdemeanor
conduct.
Petitioner's defense to three crimes requiring violent sexual
intercourse be adduced was that 1) no violence or forcible compulsion
was testified to, 2) the jury was not charged to find violence or forcible
compulsion7and“3) no testimony adducing penile penetration-of-a-vagina27

exists. With the jury returning to determine what conduct was required
to meet the statutory definition of sexual intercourse, the court erred in
redefining the statutory term "penetration" to include misdemeanor
conduct; thereby, conforming the instruction to meet the evidence of
misdemeanor conduct testified to, and obtaining felony convictions for
the same conduct used to obtain time-barred misdemeanor claims.
Obtaining a conviction based on testimony known to materially
conflict with facts known to the prosecution, as rendering those claims
to be false, undermines the integrity of the criminal justice system.
Whether the defense knew the testimony was false does not diminish
the prosecution's constitutional duty to obtain a verdict from a fully
informed jury. Omitting facts amounts to deliberately deceiving the jury
through omission, which should not be countenanced.
Under these circumstances its debatable that fairminded jurists
would have rejected Mr. Corliss's constructively amended jury
instruction claim, meaning the court should have granted the following
certificate of appealability:
Whether the court's amended instruction, that
included statutorily defined misdemeanor conduct
violated due process of law as Mr. Corliss was not on
notice to defend against such and this amendment
relieved the prosecution of proving elements of
forcible-compulsion^occasioned—^with—violent—penile.
28

penetration; thereby, obtaining felony convictions for
alleged time-barred misdemeanor conduct.
It is debatable whether every fairminded jurist would not
find the prosecution's deliberate omission of direct credibility
challenges as depriving Mr. Corliss's jury of the ability to make
an informed decision.
Pursuant to state discovery rules Petitioner provided the
prosecution, pretrial notice of, evidence that rendered complainant
C.C.'s claims to be recent fabrications. This evidence consisted of
written emails, letters and the fact of four separate mandated reporters
interviewing the complainant after the belated claims supposedly
occurred, and she reported nothing, complained that Petitioner ignored
her, spent no time with her and reported that her stepfather had
touched her inappropriately, requiring the custody court to bar
unsupervised visits with him. It wasn't until Petitioner exposed the
mother's fabrications in support litigation that these recent fabrications
were made.
Under these circumstances, it's debatable whether fairminded
jurists would have rejected Mr. Corliss's challenge to the false testimony
relied upon to convict, averring that the prosecutor had a constitutional
duty to inform the jury of facts known to them that challenge the claims
29

made by their complainant, meaning the court should have granted the
following certificate of appealability:
Whether the prosecution's refusal to inform the jury
of credibility challenging facts deprived Petitioner of
a fair trial, where such evidence directly conflicts
with the claims adduced at trial; thereby, depriving
the jury of facts needed to make an informed
decision.
The design to obtain violent felony convictions, for alleged
misdemeanor conduct, by constructively amending a jury instruction to
incorporate conduct the Pennsylvania General Assembly never
considered an element thereof, cannot be countenanced. Petitioner was
not on notice of the court's 11th hour modification that allowed
misdemeanor touching to be erroneously construed as "penetration," to
replace the required penile penetration to obtain violent felony
convictions for the same conduct the misdemeanor charge accounts for.
The deliberate omission by the prosecution, of credibility
challenging evidence, greatly undermines the pursuits of justice.
Petitioner's jury simply wasn't told all the facts known to the
prosecution, depriving Petitioner's chosen fact finder of the opportunity
to make a truly informed decision. The prosecution selected only
inculpatory testimony and ignored all that rendered the claims to be

30

These factors amount to the "threshold inquiry" this Court speaks
to in justifying a certificate of appealability be issued, Miller-El, supra.,
that "the denial of a constitutional right," Slack, supra., has likely
occurred. Reasonable jurists would find these incontestable facts
"adequate to deserve encouragement to proceed further." Id.
The decision of the court of appeals is plainly incorrect, no
limitations periods were extended before they expired and, while there
was no "Brady" issue claimed, the state's reliance on false testimony
still contradicts constitutional standards of a fair trial.
A certificate of appealability should have issued to secure right
and justice here.

31

X. CONCLUSION

Petitioner has consistently pled the facts of constitutional error
only to be met with obfuscation and deliberate avoidance techniques.
Pro se litigants, like Petitioner, are consistently and egregiously ignored
on federal habeas review, rendering resort to the great writ an empty
promise.
"The remedy of Habeas Corpus is, and has for centuries been, a
bulwark against convictions that violate fundamental fairness." Dretke
v. Haley, 541 U.S. 386, 2004. "The very nature of the Writ demands that
miscarriages of justice be corrected and that preclusive doctrines and
formalities are to yield to the imperative of correcting a fundamentally
unjust incarceration." Harris v. Nelson, 394 U.S. 286, 1969.
The district court and the Third Circuit Court of Appeals provided
no review that would engender in this citizen the idea that resort to the
courts would be meaningful and reasonable. Certificates of
appealability should issue so that the Third Circuit has an opportunity
to provide right and justice, lest the pursuit of same be reduced to a
ruse.

32

Respectfully submitted,

Justin Corliss, DOC No. MU6240
SCI Coal Township
1 Kelley Drive
Coal Township, PA 17866

33

